               United States Department of the Interior
                                  Office of Inspector General
                                      Washington, D.C. 20240
                                                                                 February 7, 2006



Memorandum

To:            P. Lynn Scarlett
               Deputy Secretary

               Mark A. Limbaugh
               Assistant Secretary for Water and Science

               P. Patrick Leahy, Acting Director
               U.S. Geological Survey

From:          Earl E. Devaney
               Inspector General

Subject:       Site Decision for National Geospatial Technical Operations Center

       Attached, please find the Report of Investigation by the Office of Inspector General
(OIG) concerning the site decision for the National Geospatial Technical Operations Center
(NGTOC), U.S. Geological Survey (USGS).

       In summary, the results of our investigation disclosed no evidence of pre-selection,
misconduct or unlawful actions relative to decisions for competitive sourcing or for selection of
the consolidated NGTOC site. No evidence was found to suggest that competitive sourcing
decisions influenced the NGTOC site selection or that candidate sites were not given equal
consideration for selection.

        USGS utilized several processes that included considerable input by select employees.
Ultimately, however, senior USGS managers and decision-makers failed to effectively
communicate their instructions or wishes to these participating employees, paving the way for
confusion, frustration, and distrust. Senior USGS managers and decision-makers also failed to
clearly document and justify the ultimate bases – both objective and subjective – for the site
decision, leaving themselves open to the very criticism they sought to avoid by keeping
documentation to a minimum.

        USGS had documented its actions and processes, including some of the very criteria that
were coined “subjective” by decision makers. In The National Geospatial Programs Office: A
Plan for Action, October 2005, U.S. Geological Survey Open-File Report 2005-1379, USGS
clearly articulated numerous Strategic Priorities and Strategic Actions that embody most of the
“subjective” criteria mentioned by decision makers during interviews with the OIG.
        Because the site consolidation of the NGTOC was a discretionary management decision,
unfettered by ministerial stricture, USGS senior decision makers were not bound by a specific
process or rules – other than federal personnel rules and those attendant to A-76 competitive
sourcing – and thus, were not required to proceed in any particular way. Absent demonstrable
misconduct or unlawful actions, USGS was free to proceed in whatever way it determined was
appropriate, using both the “quantitative and qualitative data” referenced in its December 19,
2005 Memorandum, entitled “National Geospatial Technical Operations Center Decision Process
Review Team.”

        The OIG cannot substitute its judgment for that of USGS in making a determination as to
whether or not the site selection criteria were appropriate – be they quantitative, qualitative,
objective or subjective. We do conclude that ultimately, considering all the documents we
compiled and witness testimony we developed, that the site selection and A-76 competitive
sourcing decisions are supported by the whole of the record. On the other hand, we conclude
that USGS failed to effectively and transparently demonstrate the entirety of its criteria or
communicate the magnitude of its rationale.

       We have also provided copies of our Report of Investigation to Missouri Senators
Christopher Bond and James Talent and Congresswoman Jo Ann Emerson.

Attachment
                                                       Office of Inspector General
                                                          Office of Program Integrity
                                                         U.S. Department of the Interior

                                                           Report of Investigation
Case Title                                                                 Case Number
         National Geospatial Technical
         Operations Center                                                 Related File(s)
Case Location                                                              Report Date
     Washington, DC                                                           February 6, 2006
Report Subject
     Report of Investigation

SYNOPSIS:

This investigation was initiated at the request of Missouri Senators Kit Bond and Jim Talent and
Representative Jo Ann Emerson. These members of Congress expressed concern about the process used
by the United States Geological Survey (USGS) to select a site for the National Geospatial Technical
Operations Center (NGTOC).

We conducted over twenty interviews of witnesses involved in this process, and reviewed dozens of
pertinent documents over the course of 11 weeks. Some witnesses required additional interviews to
ensure thoroughness and clarity.

Investigation revealed that USGS expended considerable time and effort to collect data, research the
requirements for competitive sourcing, assess current and future mission requirements and comply with
human resources requirements associated with the selection of a site for the consolidated NGTOC.
Additionally, USGS hired a contractor to assess the NGTOC for suitability as a candidate for and to
verify compliance with competitive sourcing requirements. These efforts provided the basis for an
informed and considered executive decision for a site for the consolidated NGTOC and for competitive
sourcing decisions. However, poor communication and conflicting information caused confusion and
misunderstanding of roles and responsibilities. USGS also failed to adequately document its decision-
making process. No meeting notes or minutes were made to document decisions or instructions to a team
assigned to develop site selection criteria. Although the senior decision-makers drew upon their
experience and exercised their independent judgment when considering expectations and needs for future
mission accomplishment, the lack of documentation and details explaining the final site selection resulted
in the appearance that the decision was made in isolation by a single executive who discounted the
recommendation of the site criteria team. Documents announcing the site selection, signed by the
Associate Director for Geospatial Information (ADGI) rather than by the USGS Director, exacerbated this
perception.

Investigation revealed that the competitive sourcing and the site selection decisions were made by the
ADGI in consultation with several other senior USGS executives and not made in isolation. USGS
Reporting Official/Title                                                    Signature

Approving Official/Title                                                    Signature

Distribution: Original – Case File       Copy - SAC/SIU Office         Copy – HQ        Other:

  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.
                                                                                                   Case Number:

utilized a formal process of data collection and preliminary recommendation by the site selection criteria
team. The decision-makers considered the data collected by the site selection criteria team and
incorporated subjective considerations such as program knowledge, experience, and expectations for the
program in the future to make the NGTOC site selection.

Investigation disclosed no evidence of pre-selection, misconduct or unlawful actions relative to decisions
for competitive sourcing or for selection of the consolidated NGTOC site. No evidence was found to
suggest that competitive sourcing decisions influenced the NGTOC site selection or that candidate sites
were not given equal consideration for selection.

DETAILS:
This investigation was initiated at the request of Missouri Senators Kit Bond and Jim Talent and
Representative Jo Ann Emerson. Specifically, these members of Congress expressed their concern about
the lack of specificity and documentation to justify the selection of Denver, CO as the site of the new
NGTOC; that the USGS “pre-planning commission” scored the candidate sites with weighted factors
showing Rolla, MO as the “clear winner;” the site selection decision was a subjective decision made by
one person without procedural justification; that the selecting official overruled the Business Strategy and
Scoping Team (BSST or team) assigned to develop site selection criteria; and that there was no set of
specific criteria or formulaic process for the site selection. The Senators and Congresswoman requested
that the OIG conduct an investigation of the site selection process, as well as the USGS decision to
conduct a competitive sourcing study under Office of Management and Budget (OMB) Circular A-76 and
whether the A-76 decision may have influenced the final site selection of Denver, CO.

On August 17, 2004, then USGS Director Charles “Chip” Groat announced to USGS employees the
creation of the National Geospatial Program Office (NGPO) through realignment and reorganization of
existing programs and offices. On January 7, 2005, Karen Siderelis, the USGS Associate Director for
Geospatial Information (ADGI) announced that USGS would consolidate its existing mapping centers and
other geospatial production activities and technical services into a new National Geospatial Technical
Operations Center (NGTOC) within the NGPO. Siderelis also announced that a study would be
conducted to prepare for a possible physical consolidation of most operations into one location and that a
team would determine the feasibility of competing new functions under A-76 competitive sourcing
guidelines.

USGS chartered the NGTOC BSST, charging the team to (1) define functions and responsibilities for the
initial and future organization of the Center, including its organizational structure, and outline
opportunities for programmatic and physical consolidation and (2) identify the functions of the
organization that would be included in a competitive sourcing analysis to arrive at the desired future
organization. The team consisted of six permanent members, an ad hoc member and two temporary
members who worked with the team for one month. The BSST was tasked to conduct an A-76 Pre-
Planning study and to develop site selection criteria upon completion of their original task.

Members of the BSST understood that their task was to provide data and information to USGS executives
who would make decisions pertaining to competitive sourcing and the selection of a site for the
consolidated NGTOC. The team collected data about the candidate sites, researched competitive sourcing
requirements, and established criteria to assist in the decision making process. They also hired a
  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             2
                                                                                                   Case Number:

contractor, Management Analysis Incorporated (MAI), Vienna, VA, a firm that specializes in competitive
sourcing analysis, to assess the feasibility of the NGTOC for competitive sourcing and to recommend
strategies that might be used if NGTOC was considered a good candidate for the competitive sourcing
process.

The MAI report, which included input from the BSST, recommended consolidation of all NGTOC
functions (less Headquarters activities) at one site and that USGS conduct a full A-76 Competitive
Sourcing Study. MAI also recommended a streamlined A-76 study for NGTOC Headquarters activities.
MAI conducted a cost comparison of the three candidate sites utilizing A-76 costing rules to determine
the cost of each organization over a five year period. MAI concluded that based only on personnel costs
the Mid-Continent Mapping Center, Rolla, MO was the most efficient. MAI used the Rolla, MO site as
the government organization to compare against a notional private sector entity to determine whether
NGTOC was a good candidate for competitive sourcing. This desktop comparison resulted in the
notional private sector entity being less costly than the selected government site, indicating that NGTOC
was a good candidate for competitive sourcing. MAI used the Rolla, MO facility only to determine the
competitive sourcing feasibility.

The MAI report did not recommend which candidate site should be selected for the consolidated NGTOC
because they were tasked to determine whether the current and proposed NGTOC was a suitable
candidate for the A-76 competitive process. This task focused on cost and did not include other factors
that would likely be considered by USGS executives. ADGI Siderelis said that while the MAI report was
useful for its intended purpose of determining whether NGTOC was a good candidate for competitive
sourcing, it only considered costs and could not be used solely as a basis for a site selection decision.

The BSST prepared a business strategy, which included information from the MAI report, for the
NGTOC which was approved by Director Groat on March 31, 2005. The BSST also recommended that
USGS proceed with a preliminary planning phase which would precede a final decision to conduct an A-
76 competitive sourcing study, consolidate NGTOC operations at a single site to be determined by the
competitive sourcing process and establish a BSST for Headquarters to assess whether a streamlined A-76
study should be conducted for functions that appear to be commercial in nature. The recommendation
was approved by Director Groat on April 13, 2005.

The BSST Chair conducted town hall meetings at the candidate sites throughout the process to explain the
upcoming changes and to provide information to employees that may be impacted by the NGTOC
consolidation. The BSST Chair reported back to ADGI Siderelis and Robert Doyle, USGS Deputy
Director, that many employees wanted USGS to select a site for the consolidated NGTOC rather than wait
for the competitive process to determine a site. The rationale was that employees wanted to know their
fate sooner, and an earlier site selection would give employees more time to prepare for the changes to
come. The BSST assessed the merits of selecting a site prior to the completion of the competitive
sourcing process. They concluded that an earlier selection of a site was employee friendly because it
gives employees the maximum amount of time in which to make decisions, would decrease the burden on
Human Resources staffs, and could potentially strengthen the Most Efficient Organization (MEO)
proposal by eliminating competition between the candidate sites. Siderelis estimated that it would cost
$200k - $250k per site if USGS followed its initial plan to allow each of the candidate sites to compete for
the MEO. Additionally, she believed the internal competition that would have been created by allowing
the candidate sites to compete against each other under the A-76 competitive process would have an
  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             3
                                                                                                   Case Number:

adverse impact on geospatial operations because the candidate sites would not be inclined to continue to
work together. Subsequently, USGS executives decided to begin the process to select a single site that
would then compete against the private sector.

The team consulted MAI and the Department of Defense Base Realignment and Closure Commission
(BRAC) to ascertain if the criteria they proposed to assist with the site selection decision was acceptable.
MAI assessed the team’s criteria as better than average and the BRAC considered the criteria to be
adequate but declined to provide a written response.

The BSST received minimal guidance on how to accomplish its task and was not fully informed about
what criteria were considered most important to management before beginning work on the site selection
study. The team members believed that they were expected to collect and analyze data, create and
populate criteria after vetting it with USGS executives and mapping center managers and to make a
recommendation for the consolidated NGTOC site. The team did not consider whether there were
advantages or disadvantages for the MEO at any particular candidate site while working toward making a
site recommendation. However, they recognized that the recommendation to have only one site instead of
all of the candidate sites compete under the A-76 process could potentially benefit the MEO by
eliminating internal competition and allowing the remaining site to draw upon experience at the other
sites.

The BSST Chair served as the primary communications conduit between the team and management.
Throughout the process, the BSST Chair briefed and received direction from multiple sources – including
the former USGS Director, the Acting USGS Director, USGS Deputy Director, the ADGI and the
ADGI’s deputy – creating misunderstanding and confusion about expectations for the final product.
Communication was also not coordinated or documented to ensure that everyone had a uniform
understanding of what was expected of the BSST.

At a meeting in about June 2005, then USGS Director Groat stated that he wanted a recommendation for a
consolidated NGTOC site. ADGI Siderelis and her deputy believed Groat was directing that the ADGI
provide a site recommendation to him while the BSST Chair believed that Groat was tasking the BSST to
provide him with a site recommendation. Groat advised that his intention had been to have the BSST
provide a site recommendation to him and that he would make the final selection decision. Groat also
advised that if there were disagreement over the BSST site recommendation, he and USGS executives
would need to justify any disagreement or the selection of a different site. Groat explained that USGS
management had never discussed the process to be used if there were disagreement, but he recognized
that there would be a need to document a decision contrary to the BSST recommendation, which might
include factors considered only by upper management.

The BSST also vetted their site selection criteria with USGS executives and mapping center managers but
did not vet the weights they placed on the criteria. The BSST believed that operational cost was the
priority for site selection because the focus of the A-76 process is to reduce costs. The BSST Chair said
that the team did not consider vetting weights for the criteria with the decision makers because the team
worked in a collaborative process to provide executives with one option based upon the team’s collective
understanding of program goals. The BSST Chair said that the weighting of the criteria was only the
team’s opinion and decision makers might weight the criteria differently. This belief was echoed by other
BSST members who acknowledged that they were only making a recommendation, that the final decision
  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             4
                                                                                                   Case Number:

was to be made at the executive level, and that it might differ from the BSST’s recommendation due to
other considerations and a different weighting scheme.

Groat did not recall any discussions about weighting the criteria. Doyle asked ADGI Siderelis to develop
a weighting scheme for the criteria. Doyle intended that a weighting scheme be vetted through the
Director’s office as had been done with the site selection criteria. He presumed the BSST had been given
sufficient instruction by Siderelis. However, there was confusion or misunderstanding between USGS
executives and the team which resulted in the BSST weighting the site selection criteria without executive
review or concurrence.

Acting Director P. Patrick Leahy, who replaced Director Groat after he resigned in June 2005, told
investigators that he empowers his executives, and he intended to have ADGI Siderelis select the site for
the consolidated NGTOC followed by his concurrence or non-concurrence. He did not expect the BSST
to make a site recommendation. The change in decision authority, as well as Leahy’s intention that the
team not provide a recommendation, was not effectively communicated, not clearly understood, or was
simply ignored, because the BSST continued to work toward making a recommendation for the Director.

The BSST Chair attended a number of meetings and briefings with ADGI Siderelis and other senior
USGS managers about the team’s activities throughout tenure of the team. The BSST Chair stated that
during a briefing for Acting Director Leahy on July 7, 2005, he reported on the team’s activities, decisions
and studies. The BSST Chair said that Siderelis was teleconferenced into the meeting. The BSST Chair
mentioned the development of the site criteria and reported that Rolla, MO was appearing to be the lowest
cost location. The BSST Chair said he was contacted by the Deputy ADGI a short time later who told
him that Siderelis “does not want you to put her in a box with [Leahy] about the site selection. She wants
to have control over that decision.” During that conversation, according to the BSST Chair, the Deputy
ADGI also directed that the BSST was not to propose a priority weighted scheme or make a site
recommendation. The Deputy ADGI told the Chair that Siderelis’ three priorities for the study were (1)
housing costs, (2) ability to draw a skilled workforce into the future, and (3) close to a major metropolitan
airport hub. The BSST Chair deduced that housing costs eliminated Reston, VA; ability to draw a skilled
workforce was subjective allowing argument for any site; and close to a major metropolitan airport
eliminated Rolla, MO. The BSST Chair interpreted this new direction as unethical influence to
manipulate an otherwise objective study and steer it toward selecting Denver, CO as the NGTOC site.
The BSST Chair was never told to recommend Denver, CO but assumed it was implied.

The Deputy ADGI acknowledged that during at least one conversation she told the Chair that the team
was not to weight the criteria or to make a recommendation. She denied telling the BSST chair the
ADGI’s specific priorities were housing costs, ability to draw a skilled workforce into the future or close
proximity to a major metropolitan airport. The Deputy ADGI believed the BSST Chair misinterpreted
examples of things that would be applied to key considerations such as program effectiveness,
partnerships and costs as specific, stand alone decision criteria. The Deputy ADGI recalled that about a
week prior to the team’s scheduled August 10, 2005 meeting with Siderelis, she had a conversation with
the BSST Chair about the next steps for the team. In that conversation, the Deputy ADGI said she
reminded the Chair that the ADGI did not want the BSST to make a site recommendation.

ADGI Siderelis stated that she was physically present for the briefing on July 7, 2005, and recalled that
she met with her deputy, her Chief of Staff, and the BSST Chair in her office for a debriefing. Siderelis
  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             5
                                                                                                   Case Number:

directed the BSST Chair not to go forward with weighting the site criteria to make a recommendation
because she did not want to be put in a box when making the site selection decision. The Deputy ADGI
did not recall details of the July 7, 2005 briefing but said that she and ADGI Siderelis met with the BSST
Chair for debriefings on several occasions. The Deputy ADGI commented that Siderelis may have told
the BSST Chair not to weight the criteria or make a recommendation during one of the debriefings.

ADGI Siderelis and her deputy denied that Denver, CO was favored, given unequal consideration, or that
the BSST or its Chair were in any way pressured to manipulate their study to favor Denver, CO as the
NGTOC site. Siderelis said that all candidate sites had equal consideration when USGS planned to allow
the competitive process to select the site. She added that the same unbiased consideration was maintained
after the decision was made to select a site outside of the competitive process. BSST members, with the
exception of the Chair, expressed their belief that there was no improper attempt to influence the team’s
efforts.

The BSST Chair ignored instructions that the ADGI did not want the team to weight the criteria or make a
site recommendation and made no changes to the site criteria, weights or recommendation developed by
the team. The Chair commented that the ADGI’s three priorities, related through the Deputy ADGI, were
well documented and included amongst the other criteria.

The BSST Chair believed that his integrity and the integrity of the study were in jeopardy and decided to
take his concerns to Acting Director Leahy. The BSST Chair met with Leahy on July 11, 2005 to relate
his concerns. Leahy listened and directed the Chair to also convey his concerns to Deputy Director
Doyle. After listening to the BSST Chair, Doyle believed that the BSST Chair was confusing
management style with ethics issues. Doyle said that Siderelis’ decisions were not improper just because
the BSST Chair wanted to address issues differently.

On about July 12, 2005, the BSST Chair met with the Deputy ADGI and told her that he had approached
Leahy and Doyle about his ethical concerns. He provided the Deputy ADGI with the team’s weighted site
selection criteria and told her that he had also provided it to Doyle. The Deputy ADGI related that she
was angry that the BSST Chair had provided weighted criteria and made a recommendation, despite being
directed not to do so. The BSST Chair was upset and did not want to talk to the Deputy ADGI when she
questioned his failure to follow instructions. The Deputy ADGI noted that the team weighted cost as the
key consideration, but the ADGI believed that while cost was important, mission accomplishment was a
higher priority. The Deputy ADGI, who was acting ADGI while Siderelis was caring for an ill family
member, did not recall if she told the ADGI Siderelis what the BSST recommendation was, although she
recalled that she told the Siderelis that the team had made a recommendation. Siderelis said she learned
of the team’s recommendation for Rolla, MO from her deputy and/or Doyle prior to the team’s scheduled
meeting with her on August 10, 2005.

Leahy said the BSST Chair and his team had overstepped their bounds because they were only asked to
develop site criteria. Leahy indicated the team weighted the criteria as they felt appropriate without
executive review or concurrence. Leahy had the impression that the BSST Chair felt the work of his team
regarding the site criteria was above review. Leahy added that he was uncomfortable about some of the
criteria the team used in their analysis (e.g. number of high school graduates). Doyle had expected that
the team would vet the weighting scheme with decision makers and, once agreement had been reached,

  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             6
                                                                                                   Case Number:

the criteria would be populated and analyzed. Had this been done, the BSST’s site recommendation
would have become the data-driven piece of the site selection process.

Doyle and Leahy met with Siderelis prior to the scheduled meeting with the BSST on August 10, 2005,
and told her that the BSST Chair had provided Doyle with the team’s work and that the team had
recommended Rolla, MO based upon how the team weighted the criteria. Siderelis was advised not to
accept the team’s weighted spreadsheet or recommendation at the upcoming meeting so that she could
base her decisions on how she desired to weight the criteria along with other considerations she deemed
appropriate.

On August 10, 2005, the BSST members briefed the ADGI on their recommendation for the A-76
competitive sourcing study and the recommendation for the site of the NGTOC. The team recommended
that USGS continue with the competitive sourcing initiative. The BSST Chair provided the ADGI with
the team’s site criteria and attempted to give her the weighted spreadsheet. Siderelis declined to accept
the weighted spreadsheet. Siderelis requested that the team provide her with a blank spreadsheet that did
not contain the weighted criteria. Siderelis asked if the team had prepared a site recommendation and the
BSST Chair blurted out that it was Rolla, MO. Siderelis said that she wished he had not told her the
recommendation. The Chair said that he had misunderstood the ADGI at the time, that he now believes
she was looking for a yes or no answer to her question, and was not asking for the name of the
recommended site. Other members of the team were confused that the ADGI did not want the weighted
criteria. Team members speculated that Siderelis, being a cautious leader, wanted to digest the data, and
make a decision without influence. They recognized that she might want to weight the criteria differently,
or that she may have other things to consider when making the final decision.

Siderelis did accept the team’s recommendation to proceed with the competitive sourcing process at one
site, but did not agree with the weighting scheme that the BSST placed on the site selection criteria. She
discussed her disagreement and concerns with Leahy and Doyle. They agreed that the ADGI should
weight the criteria as she deemed appropriate and, along with other considerations, make a decision for
the site.

Siderelis, Doyle and Leahy indicated that although USGS sought objective, fact-based criteria to assist
with the site selection decision, they also recognized that other, more subjective factors would be
pertinent to the site selection process, such as program knowledge, experience and expectations for the
program in the future.

Siderelis believed that mission accomplishment was the most important factor and placed more weight on
operational factors. She also considered factors such as anticipated long-term costs, expectations for
future mission needs, proximity to partners, and information systems infrastructure. Siderelis explained,
by way of example, that the Department of the Interior has invested in five sites (Denver, CO; Reston,
VA; Menlo Park, CA, Sioux Falls, SD; and Anchorage, AK) to develop state of the art information
systems infrastructure that USGS would be able to utilize, while USGS would have to invest heavily in
development of information systems infrastructure at a site such as Rolla, MO. Siderelis developed her
own site selection weighting, giving consideration to the criteria developed by the BSST which she used
to assist with her decision. Siderelis said she elected not to score the candidate sites because she focused
on a pro/con approach that did not work well with scores. Siderelis also discussed her thoughts and
considerations with Doyle and Leahy to determine whether she was on solid footing and was not
  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             7
                                                                                                   Case Number:

overlooking a critical factor. Siderelis commented that the site selection decision was an executive
decision that also relied on good judgment; it was not a science project with a single correct answer. She
added that USGS could make the NGTOC work at any of the candidate sites. Her task was to exercise
her best judgment to select the best site for NGTOC, not rule out a site or sites. Siderelis said she used
the information available to her to select the site she believed was most likely to be successful in the
future.

Leahy commented that the site selection decision involved evaluating short-term financial issues balanced
with long-term mission accomplishment. Partnerships and DOI’s investment in infrastructure in Denver,
CO were major considerations because the NGTOC would need to leverage its resources with the ability
to interact with partners. Doyle said that although Rolla, MO may be a less costly site, Denver, CO has
more information technology capabilities, is listed as a location in the DOI enterprise strategy, and has a
larger government presence that offers more opportunities. He said that ADGI Siderelis was concerned
about the significant investment USGS would have to make out of its budget to develop better
information technology capabilities at Rolla, MO. Doyle also said professional judgment is part of the
decision making process and added that a case could be made for any location. He said that Rolla, MO
would be the better site if cost were the only consideration, but when mission accomplishment and other
factors are included, Denver, CO becomes the better site. The Deputy ADGI stated that the site selection
decision was based upon what was best for NGTOC now and in the future. Partnerships and
internet/digital transfer capabilities were major considerations. The Deputy ADGI indicated that cost
differences between sites were not significant when comparing short-term and anticipated future costs for
the candidate sites.

Siderelis said she did not fully document her decision process because it included subjective
considerations such as future mission expectations and professional judgment which are not easily
documented. Siderelis received guidance from the USGS Office of Communication and the USGS
Human Resources Office to be open and honest, but publish minimal details about the decision process
because of the belief that decisions which include subjective assessments are more likely to provide
opportunities for criticism. Leahy said that it was important for the process to be transparent, but less
important for the decision itself to be transparent. He added that the decision is not an algebraic equation
and professional judgment must be used, which is why there are managers to make difficult decisions.

Leahy had meetings with Siderelis about the site selection decision and was comfortable with her choice.
After receiving concurrence from Leahy, Siderelis publicly announced her decision to locate the NGTOC
at Denver, CO on September 15, 2005. On September 21, 2005, Senator Bond, Senator Talent and
Representative Emerson of Missouri wrote a letter to Leahy requesting additional information pertaining
to the selection of Denver, CO as the NGTOC site. The USGS Office of Communication provided
additional information including the team’s weighted spreadsheet showing Rolla, MO as the lowest cost
site. This spreadsheet, which, on its face, appeared to be in conflict with the decision to select Denver,
CO as the site for the consolidated NGTOC, fueled the impression that the site selection team had been
overruled by one executive without basis or justification. Leahy formally responded to the members of
Congress on September 30, 2005 with details pertaining to the NGTOC site selection. Leahy’s response
provided background information, explained the reasons for consolidation, and provided rationale for the
selection of Denver, CO as the NGTOC site.



  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             8
                                                                                                   Case Number:

BSST members, including the Chair, did not express disagreement with the selection of Denver, CO
instead of Rolla, MO as the data on their weighted criteria spreadsheet suggested. They recognized that
different weights for the criteria or other factors considered by management could sway the decision to
another location. The BSST Chair said that although positions in Rolla, MO are the “cherished positions”
in USGS, and federal employees are amongst the highest paid in the area, he also understood that Denver,
CO has a significant DOI presence and close proximity to other federal agencies which are important
considerations if mission accomplishment is given a high priority. The BSST Chair stated that the site
selection is controversial, and that he did not envy ADGI Siderelis for having to make the decision
because no matter which site was selected someone would be unhappy. Finally, the BSST Chair
commented that he did not have an issue with Denver, CO as the selected site, but he questioned whether
it was a fair and objective decision, given his belief that the ADGI’s direction not to weight the criteria or
make a recommendation was an effort to influence the results of the team’s efforts.

The congressional interest, along with the knowledge that the BSST weighted spreadsheet had been
released outside of USGS, resulted in USGS receiving requests for more information from Department
officials. USGS prepared a briefing document detailing considerations used in the site selection and
listing advantages of the Denver Federal Center as the location for the NGTOC. Additionally, at Doyle’s
direction, ADGI Siderelis requested a detailed list of partners and federal agencies that NGTOC would be
working with or supporting in and around Denver, CO. Doyle sought this information in order to answer
questions. Siderelis was apprehensive about making this data request because of concern someone would
complain that she should have had this information prior to making a decision. Siderelis commented that
she did not need the detailed information because she knew from experience the Denver Federal Center
was the largest concentration of federal agencies outside of Washington, DC and that many of their
customers and contacts were in the area.

The Rolla Daily News telephonically contacted Groat some time after the September 15, 2005
announcement of the site selection. Groat recalled that it was a short conversation. The Rolla Daily News
reporter informed Groat that Denver, CO was the site selection of NGTOC and asked for his reaction.
Groat did not specifically recall what was asked or how he responded to the questions. Groat believed he
mentioned that while USGS Director he met with the Missouri Congressional delegation and that Rolla,
MO presented a strong case. Groat added that he may have said Rolla, MO was the most economical and
friendly, but that there were other criteria to consider for selecting the NGTOC location. Groat further
commented that he may have told the reporter that cost was important, but other factors existed. Groat
was not aware USGS had selected Denver, CO as the NGTOC site until he was contacted by the reporter.
Groat said he did not know if Denver, CO was a good selection or a bad selection for the NGTOC
because he does not have access to the data and information used to make the decision.

Siderelis disputed an allegation in the Rolla Daily News that she selected Denver, CO for the NGTOC
because it was the least likely location in which the government could win the MEO competition against
the private sector. Siderelis believed the rationale for the allegation was that Denver, CO is a technology
center which would provide an advantage to the private sector. She believed the complaint inferred that
she had a bias toward the private sector. Siderelis said there was no corporate influence in her decision
and that she maintained an unbiased, fair approach. Siderelis indicated that if she had a bias toward the
private sector she would not have made a number of decisions. Siderelis explained that the initial
decision to allow the competitive process to select the site gave all candidate sites an opportunity to
compete. Later, although not the only reason for the decision to select a site outside of the competitive
  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             9
                                                                                                   Case Number:

process, she concluded that having one site could potentially strengthen the MEO because it would
eliminate internal competition and allow the MEO to draw on the full NGTOC expertise. Finally, The
Siderelis noted that she elected to keep all of the sites open during the competitive process as a means of
potentially strengthening the MEO and to provide employees more time to make personal career
decisions. Siderelis added that she did not pursue the option of quickly closing the non-selected sites.
Doyle and the Deputy ADGI said there were no preconceived notions or preferences as to where the
NGTOC would be located prior to the actual site selection. They added that whether one location or
another offered a better opportunity for the MEO competition was never a part of the decision making
process.

On October 21, 2005, at the direction of Mark Limbaugh, Assistant Secretary for Water and Science,
DOI, Leahy chartered an internal review of the process leading to the NGTOC site selection to assess
whether the process was open, fair, and adequate to support the decision. The internal review team (IRT)
was comprised of USGS personnel from other internal organizations as an effort to ensure there was no
bias in the IRT’s conclusions. The IRT published its report, including clarification changes requested by
Leahy, on December 9, 2005. The IRT interviewed 22 primary participants in the site selection process,
requested information from 18 other individuals and collected documents and emails pertaining to the site
selection decision. The IRT concluded that the process leading to the selection for the NGTOC site was
open, fair, and adequate to support the decision. The IRT noted that weaknesses in the coordination of
internal communications contributed to assumptions and expectations not supported by the full
documentation and that the communications could have been improved.




  This report contained information that has been redacted pursuant to 5 U.S.C. § 552(b)(6) and (b)(7)(C) and 5 U.S.C. § 552a of the Privacy Act.

                                                   FOR OFFICIAL USE ONLY
                                                             10
